U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 16, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jay Anthony Dobyns v. United States of America,
S.CtNo. 19-389

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
23, 2019, and placed on the docket on September 24, 2019. The government's response is due
on October 24, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 25, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-03 89
DOBYNS, JAY ANTHONY
USA

J. MARK GIDLEY
WHITE & CASE LLP
701 THIRTEENTH STREET, NW
WASHINGTON, DC 20005
202-626-3609
MGIDLEY@WHITECASE.CM
JAMES B. REED
UDALL SHUMWAY PLC
1138 N. ALMA SCHOOL ROAD
SUITE 101
MESA, AZ 85201
480-461-5354
JBR@UDALLSFIIJMWAY.COM

